March 28, 2003

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT:     Audit Report - Work Performed by Business Mail Entry Employees in the
             Seattle, Minneapolis, and Des Moines Bulk Mail Centers
             (Report Number CQ-AR-03-001)

This report presents the results of our audit of work performed by business mail entry
employees at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers (Project
Number 03BG005CQ000). This self-initiated audit was conducted jointly with the
Western Area Finance and Marketing managers in response to analytical observations
we made during a recent audit of business mail entry employees in the
Colorado/Wyoming Performance Cluster.

Our audit disclosed that workhours necessary to accept business mailings at
these facilities should be reduced. As a result, management could save an estimated
$588,730 through the end of fiscal year 2005 when its planned workhour reductions are
fully implemented. We recommended that senior plant managers of the Seattle,
Minneapolis, and Des Moines Bulk Mail Centers reduce workhours, reevaluate staffing
needs periodically to determine if further reductions are necessary, and ensure that
appropriately trained personnel perform acceptance functions. Management agreed
with our recommendations and has initiatives in progress addressing the issues
identified in this report. Management’s comments and our evaluation of these
comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Kim H. Stroud,
director, Audit Operations and Quick Response, at (703) 248-2100 or me at
(703) 248-2300.



John M. Seeba
Assistant Inspector General
  for Audit

Attachment

cc: John A. Rapp
    Bernard M. Bagdzinski
    Ruth E. Brooks
    Steven J. Juhl
    Harold J. Matz
    Steven E Wenzel
    Susan M. Duchek
Work Performed by Business Mail Entry Employees                       CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers


                                    TABLE OF CONTENTS

 Executive Summary                                                        i

 Introduction                                                             1

     Background                                                           1
     Objectives, Scope, and Methodology                                   1
     Prior Audit Coverage                                                 2

 Audit Results                                                            3

     Assessment of Employees’ Workhours                                   3
      Management’s Actions                                                4
     Recommendations                                                      4
     Management’s Comments                                                5
     Evaluation of Management’s Comments                                  5

 Appendix A. FYs 2001 to 2002 Workhour and Mailings Comparison for        6
             the Seattle, Minneapolis, and Des Moines Bulk Mail
             Centers

Appendix B. Analysis of Work Performed at the Seattle, Minneapolis,       7
            and Des Moines Bulk Mail Centers and Proposed
            Reductions

 Appendix C. Estimated Cost Savings Based on Management’s Planned         8
             Workhour Reductions

 Appendix D. Management’s Comments                                        9




                                          Restricted Information
Work Performed by Business Mail Entry Employees                                                       CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers


                                       EXECUTIVE SUMMARY
    Introduction                   The Office of Inspector General (OIG) conducted an
                                   assessment of work performed by business mail entry
                                   employees at the Seattle, Minneapolis, and Des Moines
                                   Bulk Mail Centers (Project Number 03BG005CQ000).
                                   These facilities are located in the Western Area. This
                                   self-initiated audit was conducted jointly with the Western
                                   Area Finance and Marketing managers in response to
                                   analytical observations we made during a recent audit of
                                   business mail entry employees in the Colorado/Wyoming
                                   Performance Cluster.

    Results in Brief               Our audit disclosed that most of the business mail entry
                                   employees currently working at these facilities were not
                                   needed to accept business mailings.1 We estimated that
                                   business mail entry total workhours at the three facilities
                                   could be reduced by approximately 15,000 workhours
                                   through the end of fiscal year (FY) 2004. Management
                                   agreed to the reductions and will phase them in over
                                   FYs 2004 and 2005. As a result, the Postal Service could
                                   potentially save approximately $588,730 through the end of
                                   FY 2005.

                                   Inefficiencies in accepting business mailings at the
                                   three sites existed because managers did not periodically
                                   reevaluate staffing levels to improve productivity and
                                   business mail entry technicians performed duties that
                                   should have been accomplished by dock personnel.

                                   During the audit, Western Area managers agreed to reduce
                                   workhours at the Seattle, Minneapolis, and Des Moines Bulk
                                   Mail Centers as proposed in Appendix B. As of the date of
                                   our report, Western Area managers planned to phase in
                                   these reductions over the next 2 fiscal years by eliminating
                                   half of the recommended hours and transferring the balance
                                   to properly reflect the mail processing dock acceptance
                                   work being performed.

    Summary of                     We recommended the senior plant managers of the Seattle,
    Recommendations                Minneapolis, and Des Moines Bulk Mail Centers reduce



1
 A mailing is a unique event whereby the customer has prepared similar pieces of mail in accordance with the criteria
set forth in the Domestic Mail Manual.
                                                         i
                                              Restricted Information
Work Performed by Business Mail Entry Employees                                    CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers



                                hours as recommended, reevaluate staffing needs
                                periodically to determine if further reductions are necessary,
                                and ensure that appropriately trained personnel perform
                                acceptance functions.

 Summary of                     Management agreed with our finding and recommendations
 Management’s                   to reduce workhours, periodically reevaluate staffing levels,
 Comments                       and train appropriate personnel accordingly. However,
                                management agreed to phase in the workhour reductions
                                over FYs 2004 and 2005. As a result, we revised our initial
                                estimated savings to correspond with management’s
                                planned actions. Management’s comments, in their entirety,
                                are included in Appendix D of this report.

 Overall Evaluation of          Management’s actions, taken and planned, should correct
 Management’s                   the issues identified in the report.
 Comments




                                                     ii
                                          Restricted Information
Work Performed by Business Mail Entry Employees                                                       CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers


                                             INTRODUCTION
    Background                     Business mail entry units are located in Postal Service
                                   facilities nationwide. Business mail entry unit technicians
                                   receive business mailers' bulk, presorted, and permit mail
                                   for acceptance. They accept business mail using dedicated
                                   platform space, office space, and a staging area on the
                                   workroom floor. A business mail entry technician, using
                                   prescribed acceptance procedures, typically performs
                                   mailing verifications. Verification procedures include
                                   verifying fees and funds on deposit, reviewing contents of
                                   mailpieces, checking of labels and mail make up, and
                                   completing postage verification.

                                   Business mail entry technicians are located at some of the
                                   bulk mail centers. These facilities provide limited
                                   acceptance and verification of bulk mail in support of the
                                   business mail entry unit.

                                   Generally, bulk mail centers are highly mechanized mail
                                   processing facilities that do not generate revenue. A
                                   customer may receive a discounted destination bulk mail
                                   center rate if the mail is properly prepared and entered at
                                   the bulk mail center. Bulk mail centers also accept plant
                                   verified drop shipments. A plant verified drop shipment is a
                                   procedure that enables a mailer to pay postage and have
                                   mailings verified at its origin office and then to enter the
                                   mailings at a destination office using shipper-paid
                                   transportation. According to Postal Service policies,2
                                   trained dock personnel normally accept plant verified drop
                                   shipments.

    Objectives, Scope,             To assess the appropriateness of technicians' work, we
    and Methodology                made observations of business mail entry staff, conducted
                                   interviews, and compared work activities to policies and
                                   procedures. To assess the efficiency of business mail entry
                                   operations, we examined the number of mailings and
                                   workhours being used at the Seattle, Minneapolis, and
                                   Des Moines Bulk Mail Centers.




2
 Publication 804, Drop Shipment Procedures for Destination Facility, Section 5-5, Destination Entry Office
Acceptance, Part d and Chapter 6.



                                                         1
                                              Restricted Information
Work Performed by Business Mail Entry Employees                                  CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers



                                We relied on Postal Service operational systems, which
                                included the National Workhour Reporting System, and the
                                Permit System to perform our analysis of mailings, and
                                workhours. We did not test the validity of controls over
                                these systems in this audit.

                                This audit was conducted from November 2002 through
                                March 2003 in accordance with generally accepted
                                government auditing standards, and included such tests of
                                internal controls as were considered necessary under the
                                circumstances. We discussed our conclusions and
                                observations with appropriate management officials and
                                included their comments, where appropriate.

   Prior Audit                  The Office of Inspector General September 26, 2002, audit
   Coverage                     report, Work Performed by Business Mail Entry Employees
                                in the Colorado Wyoming Performance Cluster (Report
                                Number CQ-AR-02-001), disclosed that many business mail
                                entry employees currently working at the Denver Bulk Mail
                                Center and Denver General Mail Facility were not needed to
                                accept business mailings. We recommended that
                                management oversee the consolidation of business mail
                                entry operations and reduce staff as planned, and
                                reevaluate staffing to determine if further staff reductions
                                are necessary. Management agreed and the actions taken
                                and planned are responsive and should correct the issues
                                identified in the report.




                                                     2
                                          Restricted Information
Work Performed by Business Mail Entry Employees                                                       CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers




                                            AUDIT RESULTS
    Assessment of                  Our review disclosed that most of the bulk mail entry unit
    Employees’                     employees currently working at the Seattle, Minneapolis,
    Workhours                      and Des Moines Bulk Mail Centers were not needed to
                                   accept business mailings. Based on historical data, we
                                   noted that workhours were disproportionate to workload.
                                   For example, mailings per workhour were well below
                                   expectations set by Western Area management.

                                   Inefficiencies in accepting business mailings at these sites
                                   existed because managers did not periodically reevaluate
                                   staffing levels to improve productivity.1 As a result, we
                                   estimated that approximately 15,000 workhours could be
                                   reduced to accept current year mailings. This reduction in
                                   workhours could produce an estimated cost savings of
                                   $588,730 based on management’s planned actions to phase
                                   in the reduction of workhours over fiscal years (FY) 2004
                                   and 2005.

                                   As presented in Appendix A, from FYs 2001 to 2002 the
                                   combined number of mailings accepted decreased by
                                   approximately 17 percent while the hours increased by
                                   3 percent. The overall mailing per workhour at the
                                   three sites averaged .09 mailings per workhour for the
                                   2 years measured, well below the minimum standard of
                                   efficiency of 2.0 mailings per workhour according to Western
                                   Area marketing standards. Individually, the:

                                       •    Seattle Bulk Mail Center’s mailings decreased
                                            14 percent, while the hours increased 20 percent.

                                       •    Minneapolis Bulk Mail Center’s mailings decreased
                                            48 percent, while the hours decreased by just
                                            13 percent.

                                       •    Des Moines Bulk Mail Center’s mailings decreased by
                                            11 percent, while the hours increased by 3 percent.




1
 A mailing is a unique event whereby the customer has prepared similar pieces of mail in accordance with the criteria
set forth in the Domestic Mail Manual.



                                                         3
                                              Restricted Information
Work Performed by Business Mail Entry Employees                                      CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers



                                  Postal Service policies3 require that business mail entry
                                  units ensure the efficient use of workhours. In addition, the
                                  policies state that dock personnel should perform
                                  acceptance activities. However, business mail entry
                                  technicians who have different training requirements
                                  currently accept plant verified drop shipments at the Seattle,
                                  Minneapolis, and Des Moines Bulk Mail Centers. This
                                  activity constitutes the vast majority of the technicians’
                                  workload and is assigned to fill their time.

                                  Though mailings are on the decline for these units, planned
                                  FY 2003 workhours were significantly above prior year
                                  workhours used to accept mailings and additional hours
                                  anticipated to perform electronic verification, general
                                  revenue protection activities, and international mail
                                  processing, where applicable.

                                  Appendix B contains our detailed calculations of proposed
                                  workhour reductions for the three business mail entry units
                                  we reviewed. Appendix C includes our detailed calculations
                                  of labor cost savings based on the proposed workhour
                                  reductions and management’s planned actions.

    Management’s Actions          During our audit, Western Area managers agreed to reduce
                                  workhours at the Seattle, Minneapolis, and Des Moines Bulk
                                  Mail Centers as proposed in Appendix B. Western Area
                                  managers established a plan to ensure appropriate service
                                  levels and revenue protection, and to phase in an annual
                                  reduction of 7,457 workhours over the next 2 fiscal years.

    Recommendations               To bring productivity within satisfactory levels, we
                                  recommend the vice president, Western Area Operations,
                                  direct plant managers at the Seattle, Minneapolis, and
                                  Des Moines Bulk Mail Centers to:

                                  1. Reduce business mail entry hours by approximately
                                     15,000 as depicted in Appendix B.

                                  2. Reevaluate staffing periodically to determine if further
                                     reductions are necessary based on changes in workload.



3
    Handbook DM-109, Business Mail Acceptance, Chapter 2.



                                                        4
                                             Restricted Information
Work Performed by Business Mail Entry Employees                                  CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers



                                3. Ensure that appropriately trained personnel perform
                                   acceptance functions.

 Management’s                   Management agreed with our finding and recommendations,
 Comments                       including the reduction of business mail entry workhours by
                                15,053. Management agreed to an annual bottom-line
                                reduction of 7,457 and to transfer the remaining hours to
                                properly reflect the mail processing dock acceptance work
                                being performed. Management plans to phase in these
                                reductions over FYs 2004 and 2005.

 Evaluation of                  Management’s actions, taken and planned, should correct
 Management’s                   the issues identified in the report.
 Comments




                                                     5
                                          Restricted Information
Work Performed by Business Mail Entry Employees                                  CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers


                         APPENDIX A
  FYS 2001 TO 2002 WORKHOUR AND MAILINGS COMPARISON FOR
          THE SEATTLE, MINNEAPOLIS, AND DES MOINES
                     BULK MAIL CENTERS

                                                            NUMBER             MAILINGS
BULK MAIL                                                     OF                 PER
CENTER                                 FY       WORKHOURS MAILINGS            WORKHOUR
SEATTLE                               2001            7,334    1,734            0.2364
SEATTLE                               2002            8,808    1,488            0.1689

Subtotal: Percent change                                 20.10%     -14.19%    -28.55%


MINNEAPOLIS/ST. PAUL                  2001                  7,384      192     0.0260
MINNEAPOLIS/ST. PAUL                  2002                  6,392      100     0.0156

Subtotal: Percent change                                -13.43%     -47.92%    -39.83%


DES MOINES                            2001                  6,237      266     0.0426
DES MOINES                            2002                  6,444      236     0.0366

Subtotal: Percent change                                   3.32%    -11.28%    -14.13%

THE 3 SITES COMBINED
                                      2001                20,955      2,192     .1046
                                      2002                21,644      1,824     .0842

Combined: Percent change                                   3.29%    -16.79%    .0944%
Average Combined-2 Years




                                                     6
                                          Restricted Information
Work Performed by Business Mail Entry Employees                                                          CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers


                             APPENDIX B
                 ANALYSIS OF WORK PERFORMED AT THE
                SEATTLE, MINNEAPOLIS, AND DES MOINES
             BULK MAIL CENTERS AND PROPOSED REDUCTIONS
SEATTLE-PROPOSED LABOR DISTRIBUTION CODE (LDC) 79 HOUR
REDUCTION

PLANNED HOURS 2003                                                                                                9,079
 HOURS NEEDED FOR ACCEPTANCE OF MAILINGS (1488/2)**                                              (744)
 CANADIAN HELD MAIL ESTIMATE PROVIDED BY BULK MAIL
   CENTER MANAGER                                                                              (1,450)
 ELECTRONIC VERIFICATION SYSTEM (ESTIMATE PROVIDED BY
   AREA)                                                                                         (400)
LESS: WORKHOURS REQUIRED                                                                                         (2,594)
Subtotal: PROPOSED WORKHOUR (LDC 79) REDUCTION                                                                     6,485

MINNEAPOLIS-PROPOSED LDC 79 HOUR REDUCTION

PLANNED HOURS 2003                                                                                                6,436
 HOURS NEEDED FOR ACCEPTANCE OF MAILINGS (100/2)**                                                (50)
 REVENUE PROTECTION-LDC 79                                                                     (1,000)
 ELECTRONIC VERIFICATION SYSTEM (ESTIMATE PROVIDED BY
   AREA)                                                                                         (400)
LESS: WORKHOURS REQUIRED                                                                                         (1,450)
Subtotal: PROPOSED WORKHOUR (LDC 79) REDUCTION                                                                     4,986
DES MOINES BULK MAIL CENTER-PROPOSED LDC 79 HOUR
REDUCTION

PLANNED HOURS 2003                                                                                                5,100
 HOURS NEEDED FOR ACCEPTANCE OF MAILINGS (236/2)**                                               (118)
 REVENUE PROTECTION-LDC 79                                                                     (1,000)
 ELECTRONIC VERIFICATION SYSTEM (ESTIMATE PROVIDED BY
   AREA)                                                                                         (400)
LESS: WORKHOURS REQUIRED                                                                                         (1,518)
Subtotal: PROPOSED WORKHOUR (LDC 79) REDUCTION                                                                     3,582

Total Proposed Workhour (LDC 79) Reductions                                                                      15,053


** Workhours needed calculated as the number of actual mailings accepted in FY 2002 divided by the Western Area
efficiency standard of two mailings per workhour. Calculation does not include in depth analysis of individual mailings
at locations involved.




                                                          7
                                               Restricted Information
             Work Performed by Business Mail Entry Employees                                              CQ-AR-03-001
              in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers




                                  APPENDIX C
                 ESTIMATED COST SAVINGS BASED ON MANAGEMENT’S
                         PLANNED WORKHOUR REDUCTIONS
    Type of Employees         Yearly         Fully Loaded                     Amount per Year
                             Workhour          Rate/Hr
                             Reduction                                  FUNDS PUT TO BETTER USE
         PS-06 Craft
    (Business mail entry
      unit technicians)

    Labor cost savings for        -              $36.73
    the remainder of FY
    2003
    Labor cost savings for     7,457             $38.53                            $287,318
    FY 2004
    Labor cost savings for     7,457             $40.42                            $301,412
    FY 2005
    Total savings                                                                  $588,730
    resulting from hour
    reductions



             SOURCES
             WORKHOURS: USPS WESTERN AREA ACTION PLAN
             RATES: USPS 2002 PUBLISHED RATES AND ESCALATION FACTORS (4.9%)

             ASSUMPTIONS
             FY 04 ACTION PLAN EFFECTIVE FROM: FY 2004 A/P 1, FY 05 ACTION PLAN EFFECTIVE FROM: FY 2005 A/P 1
             COST OF IMPLEMENTATION: NIL, LABOR UNION AGREEMENT IMPACT: NIL

             FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
             recommended actions.




.




                                                             8
                                                  Restricted Information
Work Performed by Business Mail Entry Employees                    CQ-AR-03-001
 in the Seattle, Minneapolis, and Des Moines Bulk Mail Centers


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                     9
                                          Restricted Information
